HHS/OIG, Audit - "Review of High-Dollar Payments for Medicare Part B
Claims Processed by Group Health Incorporated for the Period January 1, 2003,
Through December 31, 2005," (A-02-07-01045)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of High-Dollar Payments for Medicare Part B
Claims Processed by Group Health Incorporated for the Period January 1, 2003,
Through December 31, 2005," (A-02-07-01045)
January 4, 2008
Complete
Text of Report is available in PDF format (305 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether Group Health
Incorporateds (GHI) high-dollar Medicare payments to Part B providers were
appropriate.  During calendar years 20032005, GHI processed 14 Part B payments
of $10,000 or more.  Eleven of the fourteen high-dollar payments that GHI made to providers were appropriate.  However, Group Health
Incorporated overpaid providers $84,092 for the remaining three payments.
Providers refunded two of the overpayments, totaling $69,394, prior to our
fieldwork, and one overpayment of $14,698 remained outstanding.
We recommended that GHI (1) recover the $14,698 overpayment and (2) consider
identifying and recovering any additional overpayments made for high-dollar Part
B claims paid after calendar year 2005.  GHI agreed with
our recommendations.